                   AUDIT REPORT

                     Audit NRC’s Material Control and
                      Accounting Security Measures
                       for Special Nuclear Materials
                           at Fuel Cycle Facilities

                    OIG-09-A-19 September 30, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                         September 30, 2009


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S MATERIAL CONTROL AND
                           ACCOUNTING SECURITY MEASURES FOR SPECIAL
                           NUCLEAR MATERIALS AT FUEL CYCLE FACILITIES
                           (OIG-09-A-19)


Attached is the Office of the Inspector General’s (OIG) report, Audit of NRC’s Material
Control and Accounting Security Measures for Special Nuclear Materials at Fuel Cycle
Facilities.

The report presents the results of the subject audit. Agency comments provided during
and subsequent to an August 26, 2009, exit conference have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow-up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5912.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                       Audit of NRC’s Material Control and Accounting Security Measures
                                                     for Special Nuclear Materials at Fuel Cycle Facilities



EXECUTIVE SUMMARY

   BACKGROUND

         The U.S. Nuclear Regulatory Commission (NRC) is authorized to grant
         licenses for the possession and use of special nuclear material (SNM) and
         establish regulations to govern the possession and use of those materials.
         SNM is used for such purposes as (1) fuel for nuclear reactors; (2)
         industrial, academic, and medical applications; and (3) the manufacture of
         industrial gauging devices.

         NRC’s regulations require that SNM license holders have material control
         and accounting (MC&A) systems to protect against the loss or misuse of
         SNM. Licensees must allow NRC to inspect the materials, controls, and
         premises where SNM is used or stored. The primary goal of the NRC
         MC&A inspection program at fuel cycle facilities is to ensure that licensee
         systems adequately detect and protect against the loss, theft, or diversion
         of SNM in the licensee’s possession.

         The Office of Nuclear Material Safety and Safeguards (NMSS) is currently
         responsible for the MC&A Inspection Program. The inspection program
         staff is composed of one fully qualified inspector and three inspectors who
         are at various stages in their 2-year training and qualification program.
         This current staff is split between NRC headquarters in Rockville,
         Maryland, and NRC’s Region II office in Atlanta, Georgia.

         NRC requires MC&A inspections at Category I fuel cycle facilities twice
         per calendar year, and these inspections require approximately 128 hours
         per site. Upon completion of an inspection, staff return to their assigned
         offices and write an inspection report. The NMSS MC&A Branch Chief
         reviews and approves the report.

   PURPOSE

         The purpose of this audit was to assess the effectiveness of NRC’s MC&A
         inspection program over the accounting and control of SNM at Category I
         fuel cycle facilities.


   RESULTS IN BRIEF

         The primary goal of NRC’s MC&A inspection program is to ensure that
         licensee MC&A systems adequately detect the loss, theft, or diversion of
         SNM. However, the Office of the Inspector General (OIG) found that the
         MC&A Inspection Program is at risk from the following conditions:



                                       i
                              Audit of NRC’s Material Control and Accounting Security Measures
                                            for Special Nuclear Materials at Fuel Cycle Facilities


    Procedures lack prioritized direction and detailed sampling
     instruction.

    Qualified staff are limited.

    Specialized training that could enhance management knowledge
     has not been taken.

Procedures Lack Prioritized Direction and Detailed Sampling
Instruction

NRC requires up-to-date, detailed procedures that provide guidance on
setting inspection priorities. Currently, inspectors must choose their
MC&A inspection activities without the benefit of prioritized procedures
containing detailed sampling instruction. Management stated that they
had not been made aware of any need for procedure revisions by the
inspectors. The result is that there is no assurance that MC&A
inspections are conducted in a consistent, thorough manner.

Qualified Staff Are Limited

Management is responsible for ensuring that NRC’s workforce has the
skills necessary to achieve the agency’s goals. The MC&A inspection
program is currently operating with only one fully qualified inspector. In
addition to conducting inspections and writing inspection reports, this
inspector provides on-the-job training to three inspectors-in-training.
Limited availability of required Department of Energy MC&A classes
restricts the ability of NRC MC&A inspectors-in-training to complete their
qualifications within the required 2-year timeframe. The result of these
training delays is an inspection program that does not have a sufficient
number of qualified inspectors to assure that inspections are conducted in
a consistent, thorough manner. However, no deficiencies were observed.

Specialized Training That Could Enhance Management Knowledge
Has Not Been Taken

NRC branch chiefs play an important role in overseeing inspection
activities and should have a level of MC&A understanding that enables
them to ensure effective performance of their branch. However, the
branch chief responsible for approving MC&A fuel cycle facility inspection
reports lacks specialized classroom training in this area. Specialized
MC&A training is not required as a prerequisite to meet the qualifications
to become an NMSS MC&A branch chief. However, without specialized




                              ii
                                    Audit of NRC’s Material Control and Accounting Security Measures
                                                  for Special Nuclear Materials at Fuel Cycle Facilities


     classroom training, NRC lacks assurance that its branch chief has
     expertise for thorough and independent assessment of inspectors’ work,
     increasing the risk that inspector errors will go undetected.

RECOMMENDATIONS

     This report makes three recommendations to improve the agency’s MC&A
     inspection program at Category I fuel cycle facilities. A consolidated list of
     these recommendations appears in Section V of this report.

AGENCY COMMENTS

     At an August 26, 2009, exit conference, agency senior executives agreed
     to provide suggested revisions to the discussion draft report for OIG’s
     consideration. On September 3, 2009, NRC provided suggested report
     revisions, which served as a basis for further discussions between the
     agency and OIG. This final report incorporates revisions made, where
     appropriate, as a result the agency’s suggestions.

     On September 25, 2009, the Executive Director for Operations provided a
     formal response to this report (Appendix B). No changes were made to
     the report based on the agency’s formal response. OIG’s response to the
     agency’s formal comments is presented as Appendix C.




                                    iii
               Audit of NRC’s Material Control and Accounting Security Measures
                             for Special Nuclear Materials at Fuel Cycle Facilities




[Page intentionally left blank.]




               iv
                               Audit of NRC’s Material Control and Accounting Security Measures
                                             for Special Nuclear Materials at Fuel Cycle Facilities



ABBREVIATIONS AND ACRONYMS

       DOE     Department of Energy

       MC&A    Material Control and Accounting

       NMSS    The Office of Nuclear Material Safety and Safeguards

       NRC     Nuclear Regulatory Commission

       NSIR    The Office of Nuclear Security and Incident Response

       OIG     Office of the Inspector General

       SNM     special nuclear material




                               v
               Audit of NRC’s Material Control and Accounting Security Measures
                             for Special Nuclear Materials at Fuel Cycle Facilities




[Page intentionally left blank.]




               vi
                                                      Audit of NRC’s Material Control and Accounting Security Measures
                                                                    for Special Nuclear Materials at Fuel Cycle Facilities



TABLE OF CONTENTS

      EXECUTIVE SUMMARY.............................................................................. i

      ABBREVIATIONS AND ACRONYMS ......................................................... v

      I.     BACKGROUND .................................................................................. 1

      II.    PURPOSE........................................................................................... 3

      III.   FINDINGS ........................................................................................... 4

             A.     PROCEDURES LACK PRIORITIZED DIRECTION AND DETAILED
                    SAMPLING INSTRUCTION................................................................. 4

             B.     QUALIFIED STAFF ARE LIMITED ....................................................... 8

             C.     SPECIALIZED TRAINING THAT COULD ENHANCE MANAGEMENT
                    KNOWLEDGE HAS NOT BEEN TAKEN ............................................. 11

      IV.    AGENCY COMMENTS ..................................................................... 14

      V.     CONSOLIDATED LIST OF RECOMMENDATIONS ......................... 15

    APPENDICES

      A.       SCOPE AND METHODOLOGY ..................................................... 17

      B.       FORMAL AGENCY COMMENTS................................................... 19

      C.       OIG RESPONSE TO FORMAL AGENCY COMMENTS ................ 21




                                                     vii
               Audit of NRC’s Material Control and Accounting Security Measures
                             for Special Nuclear Materials at Fuel Cycle Facilities




[Page intentionally left blank.]




              viii
                                           Audit of NRC’s Material Control and Accounting Security Measures
                                                         for Special Nuclear Materials at Fuel Cycle Facilities



I.    BACKGROUND

                 The U.S. Nuclear Regulatory Commission (NRC) is authorized
                 to grant licenses for the possession and use of special nuclear
                 material (SNM)1 and establish regulations to govern the
                 possession and use of those materials. SNM is used for such
                 purposes as (1) fuel for nuclear reactors; (2) industrial,
                 academic, and medical applications; and (3) the manufacture of
                 industrial gauging devices.

                 NRC’s regulations require that SNM license holders have
                 material control and accounting (MC&A) systems to protect
                 against the loss or misuse of SNM. Licensees, such as fuel
                 cycle facilities,2 have the primary responsibility to maintain the
                 security and accountability of the radioactive material in their
                 possession. Licensees must allow NRC to inspect the
                 materials, controls, and premises where SNM is used or stored.
                 These inspections are required to occur cyclically as prescribed
                 by NRC procedures.

                 Today’s threat environment differs from the pre-September 11,
                 2001, environment. In the current threat environment,
                 safeguards programs should be designed to better ensure
                 protection against the diversion or theft of material that could be
                 used malevolently.

                 The MC&A Inspection Program

                 The primary goal of the NRC MC&A inspection program at fuel
                 cycle facilities is to ensure that licensee systems adequately
                 detect and protect against the loss, theft, or diversion of SNM in
                 the licensee’s possession. A secondary goal, if loss, theft, or
                 diversion does occur, is to ensure that the licensee systems
                 trigger timely detection response and recovery operations.




1
  Special nuclear material is mildly radioactive, but includes uranium-233, uranium-235, and
plutonium-239 -- which, in concentrated form, can be the primary ingredients of nuclear
explosives. These materials, in amounts greater than formula quantities, are defined as
"strategic special nuclear material.” The uranium-235 content of low-enriched uranium can
be concentrated (i.e., enriched) to make highly enriched uranium, the primary ingredient of an
atomic bomb.
2
  A fuel cycle facility is a facility involved in the processing and fabrication of uranium ore into
reactor fuel.


                                                  1
                                            Audit of NRC’s Material Control and Accounting Security Measures
                                                          for Special Nuclear Materials at Fuel Cycle Facilities


                   NRC’s inspection program distinguishes different categories of
                   fuel facilities for inspection. NRC conducts MC&A inspections
                   at Category I facilities and Category III facilities.3 Categorization
                   of facilities is based on type and enrichment of material.4

                   The Office of Nuclear Material Safety and Safeguards (NMSS)
                   is currently responsible for the MC&A inspection program,
                   although responsibility has moved from NMSS to the Office of
                   Nuclear Security and Incident Response (NSIR) and back to
                   NMSS in recent years. A recent office history of the MC&A Fuel
                   Cycle Facility inspection program is depicted below:




                   The inspection program staff is composed of one fully qualified
                   inspector5 and three inspectors who are at various stages in
                   their 2-year training and qualification program. Previously the
                   inspection program staff was supplemented by other fully
                   qualified inspectors from within NMSS and NSIR. This current
                   staff is split between NRC headquarters in Rockville, Maryland,
                   and NRC’s Region II office in Atlanta, Georgia. The NMSS
                   MC&A Branch Chief supervises the one fully qualified inspector
                   and one of the inspectors-in-training out of headquarters. The
                   two other inspectors-in-training operate out of Region II and are
                   supervised by a Branch Chief in Region II’s Division of Fuel
                   Facility Inspection.




3
    There are no Category II fuel cycle facilities currently operating in the United States.
4
  Category I fuel cycle facilities are authorized to possess highly enriched uranium, and
Category III fuel cycle facilities are authorized to possess low enriched uranium. Highly
enriched uranium is fuel in which the weight percent of U-235 in the uranium is 20 percent or
greater. Low enriched uranium is fuel in which the weight percent of U-235 in the uranium is
less than 20 percent.
5
  Full Inspector Qualification indicates that the individual has completed all Basic-Level and
Proficiency-Level inspector training and qualification activities. Achieving Full Inspector
Qualification allows an individual to be assigned the full scope of inspection-related activities
to be independently performed with routine oversight and supervision.

                                                   2
                              Audit of NRC’s Material Control and Accounting Security Measures
                                            for Special Nuclear Materials at Fuel Cycle Facilities


          MC&A Inspections

          NRC requires MC&A inspections at Category I fuel cycle
          facilities twice per calendar year, and these inspections require
          approximately 128 hours per site. MC&A inspections typically
          require 1 week of planning and pre-work, 1 week of onsite
          inspection time, and 1 week of report writing and post-inspection
          work. Prior to each inspection, inspectors prepare an inspection
          plan detailing which procedures and activities within the
          procedures are to be accomplished during the inspection.
          Inspectors typically review and test the licensee’s performance
          in areas such as:

              Accounting and Internal Controls.

              Item Monitoring.

              Management Structure and Personnel Training and
               Qualification.

              Measurement Systems and Control.

              Physical Inventory.

              Process Monitoring.

          Inspectors also set aside time to follow up on issues noted
          during previous inspections. Upon completion of an inspection,
          staff return to their assigned offices and write an inspection
          report. The NMSS MC&A Branch Chief reviews and approves
          the report.



II.   PURPOSE

          The purpose of this audit was to assess the effectiveness of
          NRC’s MC&A inspection program over the accounting and
          control of SNM at Category I fuel cycle facilities.

          See Appendix A for a description of the audit scope and
          methodology.




                                     3
                               Audit of NRC’s Material Control and Accounting Security Measures
                                             for Special Nuclear Materials at Fuel Cycle Facilities



III. FINDINGS

          The primary goal of NRC’s MC&A inspection program is to
          ensure that licensee MC&A systems adequately detect the loss,
          theft, or diversion of SNM. However, the Office of the Inspector
          General (OIG) found that the MC&A Inspection Program is at
          risk from the following conditions:

              Procedures lack prioritized direction and detailed
               sampling instruction.

              Qualified staff are limited.

              Specialized training that could enhance management
               knowledge has not been taken.


    A. Procedures Lack Prioritized Direction and Detailed Sampling
       Instruction

          NRC requires up-to-date, detailed procedures that provide
          guidance on setting inspection priorities. Currently, inspectors
          must choose their MC&A inspection activities without the benefit
          of prioritized procedures containing detailed sampling
          instruction. Management stated that they had not been made
          aware of any need for procedure revisions by the inspectors.
          The result is that there is no assurance that MC&A inspections
          are conducted in a consistent, thorough manner.




           Figure 1. Fuel cycle facility processing uranium.
           Source: Babcock and Wilcox Nuclear Operations Group

                                      4
                                        Audit of NRC’s Material Control and Accounting Security Measures
                                                      for Special Nuclear Materials at Fuel Cycle Facilities


                MC&A Inspection Program Requirements

                NRC requires MC&A inspection program procedures to be
                current and detailed. The inspection program inspects and tests
                licensee MC&A system capabilities for detecting and triggering
                timely response to any unauthorized use or significant loss of
                SNM. The selection of a sample of records for verification is
                required as part of the testing. A brief explanation of relevant
                inspection program and sampling requirements follows.

                        Program Performance

                NRC Inspection Manual Chapter 2683, MC&A Inspection of
                Fuel Cycle Facilities, establishes the inspection requirements for
                MC&A systems for fuel cycle licensees. It states that an
                objective of the MC&A inspection program is to provide
                guidance on setting inspection priorities, commensurate with
                relative risk, for efficient and effective inspections.

                NMSS Policy and Procedures Letter 1-76, Procedures for
                Processing Inspection Manual Chapters and Inspection
                Procedures, requires that all inspection manual chapters and
                inspection procedures under NMSS purview will be reviewed at
                least once every 3 years and revised as necessary.

                        Sampling Requirements

                The book, Statistical Methods for Nuclear Material
                Management, sponsored by NRC’s Office of Nuclear Regulatory
                Research, maintains that for sampling to be effective, the
                universe to be sampled must be known and all items in the
                universe must have a chance of being selected. Agreeing with
                the above statement, an agency statistician added that it is
                important to at least consider all items because of the risk of
                "trickle loss."6

                Procedures Lack Prioritized Direction and Detailed
                Sampling Instruction

                NRC’s MC&A inspection procedures lack both prioritized
                direction and detailed sampling instruction. Professional
                judgment by the MC&A inspection staff is typically used to
                determine which inspection activities are conducted, despite
                concerns from three of the four current MC&A inspectors that
6
 Trickle loss is when numerous small items are diverted (stolen) with the hope that the theft
will not be detected because small items are not under as much scrutiny.


                                               5
                   Audit of NRC’s Material Control and Accounting Security Measures
                                 for Special Nuclear Materials at Fuel Cycle Facilities


procedures are not detailed enough to determine what activities
are to be completed. Additionally, the staff has established an
"unwritten procedure" or practice of limiting sample selection
size in favor of expediency, regardless of the size of the
universe to be reviewed.

      Activity Selection

NRC's MC&A Inspection Program for Category I fuel cycle
facilities is composed of 11 inspection procedures. Nine of the
procedures (approximately 82 percent) were issued prior to
1992 (see Figure 2, below). Each of the MC&A inspection
procedures contain numerous activities. A review by OIG staff
confirmed that these procedures lack prioritized direction,
instead relying primarily on the professional judgment of the
inspection staff to determine which activities within the
procedures are to be completed.

Figure 2.

        MC&A Category I Fuel Cycle Facility Inspection
                   Procedure Issuance

                  18%




                                                    82%



                           Prior to 1992          Post 1992


During interviews with management and staff, OIG asked how
staff determine which activities are to be conducted, and were
told that inspectors base decisions on individual professional
judgment. One inspector relayed struggling all the time to
decide which activities to complete while another inspector
conveyed feeling uneasy about prioritizing what actually needs
to be done without detailed instructions in the inspection
procedures.




                           6
                                         Audit of NRC’s Material Control and Accounting Security Measures
                                                       for Special Nuclear Materials at Fuel Cycle Facilities


                         Sampling Selection

                Staff have established an "unwritten procedure" or practice of
                limiting sample selection size in favor of expediency, regardless
                of the size of the universe to be reviewed. MC&A inspection
                procedures state that a random sample of SNM items should be
                examined by the inspector to confirm that they are in their
                designated locations and that they are properly identified. To
                accomplish this, the inspector selects a sample (typically 30
                items) from categories based on the inspector’s vulnerability
                assessment. The 30 items, along with a selection of adjacent
                items, are then verified back to a listing provided by the
                licensee.7 This method does not ensure that the entire SNM
                universe is at least considered in the sample, whereas a true
                random sample would.

                Management Not Aware of Inspector Concerns

                Management was unaware of MC&A inspector’s concerns
                regarding lack of detailed direction. However, the branch chief
                did confirm that the selection of 30 items for verification is based
                on limited time to conduct the work.

                No Assurance MC&A Inspections Are Consistent and
                Thorough

                No assurance can be made that MC&A inspections are
                consistent and thorough because the program currently
                functions with inspection procedures that lack both prioritized
                direction and detailed sampling instruction. NRC’s relatively
                inexperienced inspection staff struggles to prioritize which
                inspection activities to complete. This creates a risk that staff
                may overlook an inspection activity or rush through an
                inspection to meet scheduling demands, although no
                deficiencies were observed.

                Recommendations

                OIG recommends that the Executive Director for Operations:

                1.     Review and revise MC&A procedures as required by
                       NMSS Policy and Procedures Letter 1-76.


7
 A minimum of 30 and a maximum of 57 initial sample items for verification have been
selected over the past 2 years of MC&A inspections at Category I fuel cycle facilities, while a
minimum of 17 and a maximum of 34 adjacent items have also been selected.


                                                7
                                        Audit of NRC’s Material Control and Accounting Security Measures
                                                      for Special Nuclear Materials at Fuel Cycle Facilities


        B.    Qualified Staff Are Limited

                Management is responsible for ensuring that NRC’s workforce
                has the skills necessary to achieve the agency’s goals. The
                MC&A inspection program is currently operating with only one
                fully qualified inspector. In addition to conducting inspections
                and writing inspection reports, this inspector provides on-the-job
                training to three inspectors-in-training. Limited availability of
                required Department of Energy (DOE) MC&A classes restricts
                the ability of NRC MC&A inspectors-in-training to complete their
                qualifications within the required 2-year timeframe. The result of
                these training delays is an inspection program that does not
                have a sufficient number of qualified inspectors to assure that
                inspections are conducted in a consistent, thorough manner.
                However, no deficiencies were observed.

                Human Capital and Training Requirements

                Management is responsible for effective human capital
                management of an organization’s workforce. Management
                should ensure that skill needs are continually assessed and that
                the organization is able to obtain a workforce that has the
                required skills that match those necessary to achieve
                organizational goals.

                To qualify as an MC&A inspector, employees must successfully
                complete three qualification journals and a qualification board.8
                Seven DOE classes (169 hours) and eight on-the-job training
                activities (168 hours) are part of this required training. NRC
                procedures require that on-the-job training activities are to be
                performed concurrent with an inspection at an operational fuel
                facility under the direction of a qualified inspector. Staff
                assigned to independently perform inspections must
                successfully complete all training activities and qualification
                requirements prior to becoming inspector qualified.9


8
  The three qualification journals are Basic-Level, General Proficiency-Level, and Technical
Proficiency-Level. Basic-Level activities are designed to develop an inspector’s awareness of
their role as an inspector and the technology they will be inspecting. General Proficiency
activities are designed to develop an inspector’s interpersonal and inspection skills, while
Technical Proficiency activities are designed to develop technical expertise. A Qualification
Board is given to ensure that inspectors have a sufficiently integrated understanding of the
role of the agency, the inspection program, and their role as an inspector to act independently
in the field.
9
 The Division Director has the authority to accept previous experience and training as an
alternate method for meeting the training and qualification requirements.


                                               8
                                         Audit of NRC’s Material Control and Accounting Security Measures
                                                       for Special Nuclear Materials at Fuel Cycle Facilities


                 Qualified Staff Are Limited

                 NRC is currently conducting onsite MC&A inspections using one
                 fully qualified inspector for 32 hours, supplemented by
                 inspectors-in-training. NRC Core Inspection Requirements
                 estimate that 64 hours are required to complete an MC&A
                 inspection at a Category I fuel cycle facility.




                  Figure 3. Fuel cycle facility personnel with a research test
                  reactor fuel assembly.
                  Source: Babcock and Wilcox Nuclear Operations Group



                 There are currently three inspectors in various stages of the
                 2-year MC&A inspector training program. Management
                 explained that additional inspectors may be needed as new
                 enrichment facilities become operational. Two of the three
                 inspectors-in-training are “Basic Inspector Certified.”10 The
                 three inspectors-in-training accompany the program’s one fully
                 qualified inspector on fuel cycle facility inspections to complete
                 the on-the-job training tasks that are required as part of the
                 technical proficiency-level qualification.11 In addition to
                 conducting inspections, the fully qualified inspector also
                 provides on-the-job training to the inspectors-in-training during
                 these inspections.



10
   Basic Inspector Certification is a certification made by the individual’s supervisor that
signifies that the individual has successfully completed all basic level inspector training and
qualification activities. Achieving Basic Inspector Certification allows an individual to perform
limited scope inspection activities. In this case, inspection activities will be specifically
assigned and are to be performed with an appropriate degree of detailed supervision.
11
  Technical Proficiency-Level training consists of training courses, study guides, and on-the-
job training activities.


                                                9
                                       Audit of NRC’s Material Control and Accounting Security Measures
                                                     for Special Nuclear Materials at Fuel Cycle Facilities


               Training Delays Limit Qualified Staff

               Delays in DOE-provided MC&A training has limited the number
               of qualified MC&A inspectors. As part of the MC&A training
               program, NRC relies heavily on DOE-sponsored training.
               Management explained that it would not be financially prudent
               to develop in-house MC&A training classes for such a small
               group of people when specialized training is already offered by
               DOE.

               NRC management and all three inspectors-in-training
               expressed difficulty scheduling the required seven DOE MC&A
               classes. OIG confirmed that none of the required instructor-led
               DOE classes were/will be held more than once during 2008 and
               2009. Additionally, OIG confirmed that two of the required
               instructor-led classes were not/will not be held during 2008 and
               2009. DOE requires a minimum number of students to hold a
               class.12

               No Assurance MC&A Inspections Are Consistent and
               Thorough

               With the MC&A inspection program currently operating with one
               fully qualified inspector, there can be no assurance that
               inspections are conducted in a consistent, thorough manner,
               although no deficiencies were observed. In addition to
               conducting inspections, this inspector provides on-the-job
               training to three inspectors-in-training while conducting fuel
               cycle facility MC&A inspections. This additional responsibility
               encumbers the only fully qualified inspector, preventing the
               inspector from focusing solely on conducting inspections.

               Recommendation

               OIG recommends that the Executive Director for Operations:

               2.    Establish an alternative to DOE-sponsored MC&A
                     inspector training to be used as needed.




12
  OIG obtained documentation showing that an inspector-in-training had been registered for
two DOE classes that were cancelled because not enough students registered.

                                             10
                          Audit of NRC’s Material Control and Accounting Security Measures
                                        for Special Nuclear Materials at Fuel Cycle Facilities


C.   Specialized Training That Could Enhance Management
     Knowledge Has Not Been Taken

      NRC branch chiefs play an important role in overseeing
      inspection activities and should have a level of MC&A
      understanding that enables them to ensure effective
      performance of their branch. However, the branch chief
      responsible for approving MC&A fuel cycle facility inspection
      reports lacks specialized classroom training in this area.
      Specialized MC&A training is not required as a prerequisite to
      meet the qualifications to become an NMSS MC&A branch
      chief. However, without specialized classroom or equivalent
      training, NRC lacks assurance that its branch chief has
      expertise for thorough and independent assessment of
      inspectors’ work, increasing the risk that inspector errors will go
      undetected.




                                                                 Figure 4. Fuel
                                                                 cycle facility
                                                                 employee
                                                                 processing
                                                                 uranium.

                                                                 Source: Babcock
                                                                 and Wilcox Nuclear
                                                                 Operations Group



      Internal Control and Training Requirements

      As a best practice, branch chiefs should have a level of MC&A
      understanding that enables them to ensure effective
      performance of their branch. This includes a thorough
      understanding of item monitoring, process monitoring,
      measurement systems and control, and accounting and internal
      control as it relates to MC&A at Category I fuel cycle facilities.
      Understanding these issues is essential for inspectors as well
      as their branch chief supervisors to uphold NRC’s MC&A
      oversight role.



                                11
                                       Audit of NRC’s Material Control and Accounting Security Measures
                                                     for Special Nuclear Materials at Fuel Cycle Facilities


               Specialized Training That Could Enhance Management
               Knowledge Has Not Been Taken

               OIG found that the branch chief who is responsible for
               approving MC&A inspection reports and supervising inspection
               staff has not taken any specialized classroom MC&A training
               and is not inspector qualified.

               The branch chief is responsible for a range of tasks, including
               assessing employee performance, training new inspectors, and
               reviewing and approving work products. In addition, the branch
               chief is expected to manage technical staff who perform reviews
               of MC&A plans submitted by licensees to ensure SNM
               possession poses no undue risk to national security, direct
               development and implementation of MC&A inspection guidance,
               and recommend enforcement action for violation(s) of agency
               regulatory requirements.

               While 2 years of specialized training is required to become a
               fully qualified MC&A inspector, the branch chief asserts that
               graduate coursework, coupled with experience, self study, and
               attendance at technical conferences is adequate training to
               oversee MC&A inspection activities.13 When asked how branch
               chiefs with no specialized MC&A training are able to assess that
               the inspection reports they are approving are correct, the
               Deputy Director responsible for the MC&A inspection program
               stated that the branch chief must rely on the technical expertise
               of the staff.

               Specialized Training Not Required

               NMSS does not require specialized MC&A training as a
               prerequisite to meet the qualifications to become a Branch Chief
               of the NMSS MC&A Branch. NRC seeks candidates for branch
               chief positions who exhibit leadership and supervisory skills, as
               well as programmatic and regulatory knowledge. However, OIG
               asserts that this training is essential because it involves the
               MC&A of SNM as it goes through manufacturing processes at
               fuel cycle facilities. MC&A inspections at fuel cycle facilities
               vary greatly from MC&A inspections at commercial power
               reactors, which focus on the control and accounting of discrete
               items.



13
    The branch chief does not, on a regular basis, accompany MC&A inspectors on fuel cycle
facility inspections. Although the branch chief does have considerable NRC experience, very
little of the experience specifically focuses on MC&A fuel cycle facility inspections.

                                             12
                    Audit of NRC’s Material Control and Accounting Security Measures
                                  for Special Nuclear Materials at Fuel Cycle Facilities


Specialized Training Would Enhance Internal Controls

Although classes and experience provide the branch chief with
a solid foundation, OIG concludes that specialized classroom
MC&A training, focused on real world scenarios, is vital to
gaining a thorough understanding of the MC&A program.
MC&A fuel cycle facility inspection reports are currently
approved by a branch chief who has not received any
specialized classroom MC&A training, is not inspector qualified,
and has not been on any recent MC&A inspections. This brings
into question the branch chief’s ability to perform an
independent assessment of inspectors’ work, when the branch
chief must rely on staff for technical expertise. Because of this,
NRC lacks assurance that its branch chief has an appropriate
level of MC&A inspection expertise, increasing the risk that
inspector errors or inadequate reviews will go undetected.

Recommendation

OIG recommends that the Executive Director for Operations:

3.     Provide appropriate MC&A training for managers without
       MC&A backgrounds responsible for MC&A inspections at
       fuel cycle facilities.




                          13
                            Audit of NRC’s Material Control and Accounting Security Measures
                                          for Special Nuclear Materials at Fuel Cycle Facilities



IV.   AGENCY COMMENTS

         At an August 26, 2009, exit conference, agency senior
         executives agreed to provide suggested revisions to the
         discussion draft report for OIG’s consideration. On
         September 3, 2009, NRC provided suggested report revisions,
         which served as a basis for further discussions between the
         agency and OIG. This final report incorporates revisions made,
         where appropriate, as a result the agency’s suggestions.

         On September 25, 2009, the Executive Director for Operations
         provided a formal response to this report (Appendix B). No
         changes were made to the report, based on the agency’s formal
         response. OIG’s response to the agency’s formal comments is
         presented as Appendix C.




                                  14
                           Audit of NRC’s Material Control and Accounting Security Measures
                                         for Special Nuclear Materials at Fuel Cycle Facilities



V.   CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1.   Review and revise MC&A procedures as required by
              NMSS Policy and Procedures Letter 1-76.

         2.   Establish an alternative to DOE-sponsored MC&A
              inspector training to be used as needed.

         3.   Provide appropriate MC&A training for managers without
              MC&A backgrounds responsible for MC&A inspections at
              fuel cycle facilities.




                                 15
         Audit of NRC’s Material Control and Accounting Security Measures
                       for Special Nuclear Materials at Fuel Cycle Facilities




[Page intentionally left blank.]




               16
                            Audit of NRC’s Material Control and Accounting Security Measures
                                          for Special Nuclear Materials at Fuel Cycle Facilities


                                                                                 Appendix A
SCOPE AND METHODOLOGY

       The objective of this audit was to assess the effectiveness of
       NRC’s MC&A inspection program over the accounting and
       control of SNM at Category I fuel cycle facilities.

       In order to accomplish the objective of this audit, OIG obtained
       and analyzed pertinent laws, regulations, authoritative guidance,
       NRC policies and procedures, and prior relevant NRC OIG
       reports to identify Federal and agency requirements relevant to
       MC&A operations.

       Additionally, OIG reviewed inspection reports, training and
       human resource documents, and internal communications and
       conducted interviews with current and former staff to:

          Gain an understanding of NRC’s MC&A inspection program.

          Determine current issues, problems, and known deficiencies.

          Assess internal controls.

       OIG also observed two MC&A inspections at Category I fuel
       cycle facilities in Region II.

       Internal controls related to the audit objective were reviewed
       and analyzed. Throughout the audit, auditors were aware of the
       possibility or existence of fraud, waste, or misuse in the
       program.

       The work was conducted from January to June 2009 in
       accordance with generally accepted government auditing
       standards. Those standards require that we plan and perform
       the audit to obtain sufficient, appropriate evidence to provide a
       reasonable basis for our findings and conclusions based on our
       audit objectives. We believe that the evidence obtained
       provides a reasonable basis for our findings and conclusions
       based on our audit objectives.

       The work was conducted by Beth Serepca, Team Leader; Terri
       Cooper, Audit Manager; Robert Woodward, Senior Auditor; and
       James McGaughey, Senior Analyst. We performed the audit
       work at NRC Headquarters in Rockville, Maryland; Region II
       offices in Atlanta, Georgia; and at Category I fuel cycle facilities
       in Region II.


                                  17
         Audit of NRC’s Material Control and Accounting Security Measures
                       for Special Nuclear Materials at Fuel Cycle Facilities




[Page intentionally left blank]




               18
                  Audit of NRC’s Material Control and Accounting Security Measures
                                for Special Nuclear Materials at Fuel Cycle Facilities


                                                                       Appendix B
FORMAL AGENCY COMMENTS




                        19
Audit of NRC’s Material Control and Accounting Security Measures
              for Special Nuclear Materials at Fuel Cycle Facilities




      20
                           Audit of NRC’s Material Control and Accounting Security Measures
                                         for Special Nuclear Materials at Fuel Cycle Facilities


                                                                                Appendix C
OIG RESPONSE TO FORMAL AGENCY COMMENTS

       OIG does not deny the importance of management skills in
       selecting management candidates, nor does the report
       recommend that managers be selected solely on the basis of
       technical skills. Rather, OIG asserts that it is reasonable to
       expect managers to have a working knowledge of job-specific
       subject matter, and that NRC should provide appropriate
       training to managers who enter a field without prior professional
       experience or formal training in that field.




                                 21
